December 16, 2008

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

DOUG A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT: Audit Report – Maintenance Facility Repairs
         (Report Number SA-AR-09-002)

This report presents the results of our audit of Maintenance Facility Repairs (Project
Number 08YG022SA000). We conducted this self-initiated audit based on operational
risks we identified during the Facilities Single Source Provider (FSSP) program audit.
Our objective was to determine whether the U.S. Postal Service Maintenance function
has effective controls over facility repairs. See Appendix A for additional information
about this audit.

Conclusion

Postal Service Maintenance could improve controls over facility repairs. Specifically, we
identified the following internal control weaknesses.

     • Field Maintenance Offices1 (FMOs) inappropriately used credit cards to contract
       for maintenance and repair services.

     • FMOs were inconsistent when writing Article 322 declinations for contracted work.

   • The Postal Service did not use the FSSP as a single source to track all facility
      maintenance and repair work and disbursements.
Contracting Out Maintenance and Repair
1
  FMOs control field maintenance by prioritizing work, establishing a work schedule, and ensuring that maintenance
tasks are completed quickly and economically.
2
  Article 32 is a section of Handbook EL-912, Agreement between United States Postal Service and American Postal
Workers Union, AFL-CIO 2000-2003, under which the Postal Service gives due consideration to public interest,
efficiency, availability of equipment, and qualification of employees when evaluating the need to subcontract.
Maintenance Facility Repairs                                                             SA-AR-09-002




FMOs used credit cards to contract for facility maintenance and repair services under
$2,000, which the facilities service office (FSO) should have completed. Management
issued credit cards to maintenance personnel to make small purchases of additional
repair parts needed while they were on-site to complete facility repairs. However, the
Southeast Area and Colorado/Wyoming Districts used their credit cards to pay
contractors for maintenance and repair services costing less than $2,000.

This occurred because the FMOs accepted the work and then used their credit cards to
procure repair services they could not perform, instead of declining the work and
returning it to the FSOs. In addition, FSOs believed that allowing FMOs to contract out
and pay for repair services with their credit cards was a quick and effective way to
address small emergency projects. Policies and procedures for the FSSP program
require FSOs to complete all facility maintenance and repair work FMOs decline. In
addition, Handbook MS-453 restricts FMOs from administrating contracts.

The FSOs budget and prioritize facility repair funds. However, by allowing the FMOs to
accept FSSP calls and use their credit cards to procure repair services, the FSOs lose
the ability to control, prioritize, and track repairs. In addition, when the FSOs do not
prioritize maintenance and repairs, there is a risk that assets are not being put to their
best use. We identified a total of $2,927,732 in credit card purchases for the period
October 2006 through March 2008 that we consider unsupported questioned costs,4
resulting from Postal Service officials not following policies and procedures. See
Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Engineering:

1. Issue supplemental guidance to ensure Field Maintenance Office personnel are
   aware of Postal Service policy that restricts the use of the credit card to procure
   services and include internal controls to ensure personnel comply with the policy.

Management’s Comments

Management agreed with the recommendation and stated they would issue instructions
to the area maintenance managers regarding the appropriate use of credit cards by
FMO personnel by the second quarter of fiscal year (FY) 2009. Further, the FSOs will
be instructed to review FMO credit card usage to ensure compliance with the policy
each quarter, beginning with the third quarter of FY 2009. See Appendix C for
management’s comments, in their entirety.

Inconsistent or Incomplete Article 32s

3
  Handbook MS-45, Field Maintenance Program, Maintenance Series states “The FSO contracts work declined by
the FMO after an evaluation is completed by the FMO.” Chapter 4 states the “FMO does not procure or administer
contracts.”
4
  Costs that are unnecessary, unreasonable, or an alleged violation of a law or regulation.




                                                       2
Maintenance Facility Repairs                                                                 SA-AR-09-002




We identified inconsistencies in the data entered for Article 32 declinations for 75 of 299
statistically selected FSSP calls reviewed.5 This occurred because some FMO
managers did not receive training on completing Article 32 declinations.

In addition, five of the six maintenance-capable offices (MCO)6 included in our review
could not enter Article 32 information into the FSSP program because the FSO had not
authorized access to the FSSP for all MCOs.

Proper completion of Article 32 declinations can assist the Postal Service in its defense
against union grievances they receive when they need to contract out for facilities
maintenance and repairs. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Engineering, in coordination with the Vice
President, Labor Relations:

2. Develop and implement training for facility maintenance offices and maintenance-
   capable offices on how to complete Article 32 declinations.

Management’s Comments

Management agreed with the recommendation and stated that Labor Relations will
develop training for proper completion of Article 32 declinations by the end of the first
quarter of FY 2009. Management further stated that, contingent upon budget
availability, training would begin in the third quarter of FY 2009.

We recommend the Vice President, Facilities:

3. Require facilities service offices to provide all maintenance-capable offices with
   access to the Facility Single Source Provider program.

Management’s Comments

Management agreed with the recommendation and stated they will issue instructions to
all FSOs by the end of the first quarter of FY 2009 to ensure all maintenance capable
offices have access to the FSSP program.




5
  We identified inconsistencies with the disclosure factors entered. Five disclosure factors are evaluated before
making a decision to subcontract: public interest, cost, efficiency, availability of equipment, and qualifications of
employees.
6
  An MCO has assigned maintenance personnel who are qualified to maintain a facility and the equipment installed in
that facility. The office typically includes a maintenance manager and building equipment mechanics.




                                                          3
Maintenance Facility Repairs                                                            SA-AR-09-002




Bypassing the Facilities Single Source Provider Program

The Postal Service did not use the FSSP as a single source to track all facility
maintenance and repair work and disbursements. As a result, in FY 2007, the FMO
performed 71,072 work orders (39 percent of the total work orders) that did not originate
in FSSP.

The FSSP implementation plan requires the FSSP program to track all facility repairs.
Currently, the FMO’s electronic Maintenance Activity Reporting System (eMARS) and
Facilities’ FSSP have separate databases to track facility repairs. Facilities
management officials stated they have been working to consolidate the data; however,
technical issues are involved with interfacing the two databases.

Because the Postal Service manages repairs through these two separate databases
and the FMO was not required to include the FSSP call number on the work orders
included in eMARS, tracking all facility repairs was difficult.

We also found that Associate Offices (AOs) bypassed the FSSP program by calling the
FMO directly because they believed this gave them a better response to their problems.
In addition, maintenance personnel from the FMO often performed additional work
on-site that was not included with the original work order. This additional work was not
entered into the FSSP program. However, the FMO charged the additional repairs to
the budget line item for facility repairs7; as a result, less than the budgeted amount of
money was available to the FSO to manage and prioritize FSSP calls.8 See Appendix B
for our detailed analysis of this topic.

We recommend the Vice President, Facilities, in coordination with the Vice President,
Engineering, implement internal controls to:

4. Allow the accurate tracking of facility maintenance and repair orders, such as
   requiring maintenance personnel to include Facility Single Source Provider call
   numbers on work orders in the electronic Maintenance Activity Reporting System.

Management’s Comments

Management agreed with the recommendation and stated that by the end of the second
quarter of FY 2009 they will modify eMARS to require a field indicating the FSSP
program call number on all work orders.




7
 Budget Line 3B is the Finance Performance Report line item for facilities repairs.
8
 For FY 2007, Line 3B projects expensed by the Postal Service totaled $189,475,773, of which the FMO expensed
$41,827,221.




                                                       4
Maintenance Facility Repairs                                            SA-AR-09-002




We recommend the Vice President, Facilities, in coordination with the Vice President,
Engineering, implement internal controls to:

5. Ensure that facility maintenance office personnel require all Associate Office repair
   and alteration work, including additional work requests performed while the facility
   maintenance office personnel are on-site, to be generated through the Facility Single
   Source Provider program.

Management’s Comments

Management agreed with the recommendation in part and stated that the Vice
President, Engineering, and Vice President, Facilities, will issue joint instructions to
installation heads of field offices and FMO operations managers on the proper use of
the FSSP program by the end of the first quarter of FY 2009. However, in certain
situations the maintenance technician may do additional work on-site, approved by the
supervisor, without initiating a separate call to FSSP. In these cases the work order will
contain the original FSSP call number for reference.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management's
comments responsive to all the recommendations and management’s corrective actions
should resolve the issues identified in the report. Management did not believe the
$2,927,732 in unsupported questioned costs were unnecessary or unreasonable. They
stated there was no indication that this money was not used for valid business needs.
However, they did agree that their field offices did not properly follow policies and
procedures when contracting for maintenance services. Because field offices did not
follow proper procedures we will report the $2,927,732 in unsupported questioned costs
in our Semiannual Report to Congress.

The OIG considers recommendations 1, 2, 4, and 5 significant, and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.




                                            5
Maintenance Facility Repairs                                         SA-AR-09-002




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea L. Deadwyler, Director,
Inspection Service and Facilities, or me at (703) 248-2100.

    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
for Support Operations

Attachments

cc: Edward L. Gamache
    Katherine S. Banks




                                           6
Maintenance Facility Repairs                                             SA-AR-09-002



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Administrative Support Manual (ASM), Section 531.22, states that the primary
objectives of maintenance management are to maintain a safe, pleasant, and healthy
working environment; maintain all plant and Postal Service equipment in good operating
condition; minimize total operating costs; and protect the Postal Service’s investment in
buildings and equipment. The ASM also defines building and building equipment as the
building’s physical structure, utilities, and environmental systems.

Local maintenance offices are to implement headquarters maintenance policies and
programs through the area office. Area managers may delegate to their staffs the
authority to oversee the performance of maintenance activities, but they retain final
accountability for the success or failure of the program. There are two types of local
maintenance offices:

    •   An FMO coordinates and administers maintenance activities at sites that have no
        maintenance supervision. The FMO is responsible for the effective use of its
        resources to provide maintenance support to these sites. It is composed of an
        FMO manager and area service technicians.

    •   An MCO is an office that has assigned maintenance personnel qualified to
        maintain a facility and the equipment installed in that facility. The maintenance
        manager reports to the postmaster of a facility.

The local maintenance organization should use Postal Service (PS) Form 4805,
Maintenance Work Order Request, for all facility repair and alteration work. These work
orders are maintained electronically in eMARS. The work order provides information for
planning repairs and estimating workhours and material. It also authorizes the work,
gives instructions on when and how the job is to be performed, and includes a space for
reporting the work performed.

The Postal Service accounts for repair and alteration expenses under account
classification code 3B in the Postal Service Financial Performance Report. Line 3B is
the budget line that provides funding for repair and alterations of Postal Service
facilities. In FY 2007, Facilities took over from Operations the responsibility for
managing these funds. Facilities also gave a portion of these funds to the areas, which
distributed it to district field maintenance for facility repairs. However, for FY 2008,
headquarters Facilities controlled the amount of the Line 3B budget the districts used.

In 2001, the Postal Service reengineered the facilities support process by developing
the FSSP program. The FSSP program incorporates into one organization all facilities
services the FSO, the Administrative Services Office, and the Area Project and
Development Team previously provided. In addition, the FSO now manages all facility




                                             7
Maintenance Facility Repairs                                               SA-AR-09-002



repair work less than $2,000 and enforcement of lessor maintenance managed by
postmasters.

The FSSP program benefits the Postal Service by providing a single point of contact for
facilities needs. The goal of FSSP is to establish a cost effective and efficient program
to provide facilities support. Postmasters, station managers, and officers in charge
contact the FSSP response line and inform them of repairs needed at a facility. Work
requests are recorded in a database through the Postal Service’s Intranet. This
database is separate from the eMARS database maintenance uses. FSO personnel
update the database to provide current project updates. In addition, FSO management
uses the database to track the status of all active repairs to ensure timely completion
and track lessor maintenance and contracting issues. Each of the Postal Service’s nine
areas implemented the system by the end of FY 2005.

The FMO should receive all calls for facility repairs from FSSP. The FSO offers repairs
and alterations to the FMO in accordance with Handbook EL-912, Agreement Between
the United States Postal Service and American Postal Workers Union, AFL-CIO 2000-
2003, Article 32. The FMO makes a determination to accept or decline the repair and
alteration work based on five factors listed in Article 32. If the FMO declines the work,
they are required to give due consideration to public interest, cost, efficiency, availability
of equipment, and qualification of employees when evaluating the need to subcontract.
Handbook MS-45, Field Maintenance Program, Maintenance Series provides guidelines
for work the FMO declines. Chapter 4, Section 421B, states that if the FMO Manager
decides to decline an FSSP Response Line work request, Article 32 considerations will
be completed within the FSSP call response software and become part of the problem
history. The FSO then procures and administers the contract.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service maintenance function has
effective controls over facility repairs. To accomplish this objective, we reviewed
documentation, including a statistical sample of maintenance work orders and
judgmental samples of FSSP calls and credit card payments. We also reviewed
applicable policies and procedures and examined other material necessary to meet our
audit objective. In addition, we visited Postal Service facilities and interviewed
managers and employees.

We conducted this performance audit from March through December 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our




                                              8
Maintenance Facility Repairs                                           SA-AR-09-002



observations and conclusions with management officials on October 8, 2008, and
included their comments where appropriate.

We used computer-generated data from the Postal Service’s FSSP, eMARS, and
xxxxxxxxxx xxxx xxxxxxxxx. We verified the validity and reliability of computer-
generated data obtained by comparing it to actual work orders, Article 32 declinations,
and actual disbursement documentation and receipts, interviews with the auditee, and
observation of data input.

PRIOR AUDIT COVERAGE

The OIG and the Government Accountability Office (GAO) have issued several reports
in recent years regarding facilities operations.

                                    Final
                         Report    Report        Monetary
  Report Title          Number      Date          Impact              Report Results
 Review of              SA-AR-    March 3,        $9,379    The report concluded FSOs do
 Postal Service         08-004    2008                      not consistently manage repair
 Facilities Single                                          calls through the FSSP
 Source                                                     program; FSOs do not
 Provider                                                   adequately track the
 System                                                     expenditures charged to the
                                                            repairs and alterations budget
                                                            line; FSOs do not adequately
                                                            control Facilities Knowledge
                                                            Center invoicing and payments;
                                                            and the data in the FSSP
                                                            program is not reliable.
                                                            Management agreed with the
                                                            report results except for the
                                                            report’s identification of $18
                                                            million of assets at risk for not
                                                            adequately tracking
                                                            expenditures. Management
                                                            stated monitoring controls are in
                                                            place. Therefore, the assets
                                                            are not at risk.
 Improvements           GAO-08-   December         N/A       The Postal Service developed a
 in Data Would          41        2007                       Facility Database, but the
 Strengthen                                                  database does not conform to
 Maintenance                                                 the Postal Service’s goals or to
 and Alignment                                               leading federal practices.
 of Access to                                                Specifically, it does not include




                                             9
Maintenance Facility Repairs                                    SA-AR-09-002



 Retail Services                                      data needed to measure
                                                      performance on managing
                                                      facilities or have the capacity to
                                                      track such data over time. The
                                                      Postal Service agreed with the
                                                      recommendations except for
                                                      replacing the Facility Database
                                                      with a new one, establishing
                                                      additional controls to improve
                                                      database reliability, adopting
                                                      leading federal practices for
                                                      measuring facility management
                                                      performance, tracking
                                                      performance trends over time,
                                                      and instituting a criteria-based
                                                      approach to identify and close
                                                      unneeded retail facilities.
 Postal Service         CA-AR-   May 14,        N/A   The Postal Service does not
 Facilities             07-003   2007                 perform inspections or
 Maintenance                                          preventative maintenance of
 and Repair                                           customer service facilities to
 Costs                                                prevent unplanned repairs and
                                                      alterations. In addition,
                                                      facilities personnel do not
                                                      believe local building managers
                                                      possess the expertise to
                                                      conduct the inspection. The
                                                      Postal Service agreed with the
                                                      recommendations except for
                                                      spending for repairs and
                                                      alterations. Management
                                                      believed its inspection program
                                                      was adequate to allow for
                                                      optimum service.




                                           10
Maintenance Facility Repairs                                                             SA-AR-09-002



                               APPENDIX B: DETAILED ANALYSIS

Contracting for Services by Maintenance

The FMOs did not always follow Postal Service policy for contracting for maintenance
repair services. Specifically, in some cases they used credit cards to procure services
under $2,000. We reviewed FMO work orders9 for the Atlanta, Greensboro, and
Colorado/Wyoming Districts for the period October 1, 2006, through September 31,
2007, to determine whether the FMOs were contracting for services. Our review
identified 1,071 work orders10 for which the Atlanta FMO contracted for repair services
instead of performing the work in-house. In addition, we found instances of the
Colorado/Wyoming District contracting for repair services.

To determine the financial impact, we reviewed credit card purchases by the Southeast
Area and the Colorado/Wyoming District for the period October 2006 through March
2008. We identified $2,927,732 in credit card purchases by the FMO for maintenance
and repair services. We consider these unsupported questioned costs because the
FMO did not adhere to the policy requiring them to return all declined work to the FSSP
or the policy that prohibits them from administering contracts.

                            Table 1. Review of Work Contracted Out

                                                               Amounts of Credit
                                                                Card Purchases
                               Districts Reviewed
                                                                 for FY 2007 to
                                                                  March 2008
                          Alabama                                        $ 96,437
                          Atlanta                                         500,899
                          Central Florida                                 450,130
                          Mississippi                                      95,492
                          North Florida                                   210,745
                          South Florida                                   167,556
                          South Georgia                                   169,153
                          Suncoast                                        473,418
                          Tennessee                                       240,940
                          Colorado/Wyoming11                              522,962
                             Total                                     $2,927,732




9
  Work orders document the scheduling and reporting of planned and unplanned corrective, reactive, and breakdown
maintenance. Work orders also document root causes, workhours, travel, and costs.
10
   The Atlanta District had 4,667 work orders in FY 2007.
11
   Our review of district credit card purchases for the Western Area showed FMO subcontracting maintenance work
only in the Colorado/Wyoming District.




                                                       11
Maintenance Facility Repairs                                             SA-AR-09-002



Inconsistent or Incomplete Article 32 Declinations

Our review of statistically selected declined FSSP calls for the Atlanta, Greensboro, and
Colorado/Wyoming Districts showed that FMOs are inconsistent when inputting Article
32 declinations. An Article 32 declination is required when the FMO declines a FSSP
call and the work is to be contracted out. This process requires the Postal Service to
give due consideration to public interest, cost, efficiency, availability of equipment, and
qualification of employees when evaluating the need to subcontract. Our review
identified the following.

                         Table 2. Review of Article 32 Submissions

                                             Number of
                      District Name                            Sample Size
                                           Discrepancies
                Atlanta                          16                 99
                Greensboro                       30                100
                Colorado/Wyoming                 29                100

We found the following types of discrepancies.

    • Periods were input for one or more of the five due consideration factors.

    • N/A (not applicable) was input for one or more of the five due consideration
      factors.

    • The same narrative was repeated for each consideration factor.

    • FMO managers input N/A for the public interest criteria because they were
      unsure of the meaning of “public interest.”

In addition, five of the six MCOs reviewed did not have access to the FSSP program to
input Article 32 declinations into the system. The FSSP program is the central location
for all declined Article 32 submissions. Without access to the FSSP program, MCO
personnel cannot enter Article 32 information into the system.

Proper completion of Article 32 declinations can assist the Postal Service in its defense
against union grievances resulting from disputes over whether facilities maintenance
work should be contracted out.

Bypassing the Facilities Single Source Provider Program

The FSSP implementation plan requires that the FSSP program track all facility repairs.
However, we found that the FSSP was not a single source to track all facility repairs and
disbursements. For FY 2007, the FMO processed 182,156 work orders; however,




                                            12
Maintenance Facility Repairs                                             SA-AR-09-002



71,072 of those work orders (39 percent) were not generated through the FSSP
program.

This occurred because there were two separate databases used to track facility repairs:
FMOs used eMARS and Facilities used the FSSP program. The FMO documented
facility repairs performed by the FMO on work orders and was not required to include
the FSSP call number on its work order. The FMO maintained all work orders they
perform in the eMARS system, but they did not maintain work orders in the FSSP.
Facilities management stated they have been working to consolidate the data; however,
there are cost-prohibitive technical issues involved with interfacing the two databases.

Because the Postal Service managed repairs through two separate databases and the
FMO was not required to include the FSSP call number on the work orders in eMARS, it
was difficult to track all facility repairs, as the FSSP program was intended to do. We
identified two FMOs that included the FSSP call number in the description section of an
FMO work order, which assisted Finance personnel in tracking the work order to the
FSSP call number when approving eBuy requests. However, this was not a consistent
practice at all FMOs.

We also found that AOs called the FMOs directly for repairs, believing this gave them a
better response to their problems. Further, FMO personnel often performed additional
work outside of the original work order while at the AO, which created more work orders
that were not being tracked through the FSSP.

Examples of AOs circumventing the FSSP program include AOs:

    •   Bypassing the FSSP program by faxing requests directly to the FMO.

    •   Calling contractors directly for facilities repairs under $2,000 and then addressing
        the issue with District Finance Managers when the eBuy request was submitted.

    •   Contacting the Manager of Post Office Operations directly, who then contacted
        the FMO, bypassing the FSSP.

    •   Contacting FMO employees directly.

Because the FMO charged the additional repairs as 3B Line expenses, less than the
budgeted amount of money was available to the FSO to manage and prioritize FSSP
calls. In addition, the Postal Service bore the risk that a contractor and the FMO might
complete the same repair.




                                             13
Maintenance Facility Repairs                                SA-AR-09-002



                        APPENDIX C: MANAGEMENT’S COMMENTS




                                       14
Maintenance Facility Repairs        SA-AR-09-002




                               15
